SEMIANNUAL REPORT TO THE CONGRESS

    APRIL 1, 2010 – SEPTEMBER 30, 2010

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS
                                                                         October 29, 2010




MEMORANDUM

TO:            Rocco Landesman
               Chairman

FROM:          Tonie Jones
               Acting Inspector General

SUBJECT:       Semiannual Report to the Congress: April 1, 2010 – September 30, 2010

The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation of
semiannual reports to the Congress summarizing the activities of the Office of Inspector General
(OIG) for the six-month periods ending each March 31 and September 30. I am pleased to enclose
the report for the period from April 1, 2010 to September 30, 2010.

The Inspector General’s report is intended to cover audits, inspections, evaluations, investigations and
other reviews conducted by the OIG as well as our review of the OMB Circular A-133 audits
conducted by independent auditors. The report also indicates the status of management decisions
whether to implement or not to implement recommendations made by the OIG. The former
President’s Council on Integrity and Efficiency developed the reporting formats for Tables I and II to
ensure consistent presentation by the Federal agencies. The tables provide only summary totals and
do not include a breakdown by auditee.

The Act requires that you transmit this report to the appropriate committees of the Congress within 30
days of receipt, together with any comments you may wish to make. Comments that you might offer
should be included in your "Report on Final Action," a management report that is required to be
submitted along with the Inspector General’s report. We will work closely with your staff to assist in
the preparation of the management report. The due date for submission of both reports is
November 30, 2010.

I appreciate the continuing support we have received from the Chairman’s Office and your managers
throughout the Agency. Working together, I believe we have taken positive steps to improve Agency
programs and operations. We look forward to continuing these efforts.
                                 TABLE OF CONTENTS
                                                                                          PAGE


NATIONAL ENDOWMENT FOR THE ARTS                                                             1

OFFICE OF INSPECTOR GENERAL                                                                 1

SUMMARY OF WORK COMPLETED BY THE OIG                                                        2

   Audits/Inspections/Evaluations/Reviews                                                   2
   Audit Resolution                                                                         2
   Inspections                                                                              2
   Investigations                                                                           2
   Audit of the NEA Financial Statements                                                    3
   NEA’s Compliance with FISMA                                                              3
   Indirect Cost Rate Negotiations                                                          3
   Review of Legislation, Rules, Regulations and Other Issuances                            3
   Technical Assistance                                                                     4
   Web Site                                                                                 4
   Other Activities                                                                         4
   Strategic Plan & Five Year Audit Plan                                                    4

SECTIONS OF REPORT                                                                          5

   SECTION 1 - Significant Problems, Abuses and Deficiencies                                5

   SECTION 2 - Recommendations for Corrective Action                                        5

   SECTION 3 - Recommendations in Previous Reports on Which
                 Corrective Action Has Not Been Implemented                                 5

   SECTION 4 - Matters Referred to Prosecuting Authorities                                  5

   SECTION 5 - Denials of Access to Records                                                 5

   SECTION 6 - Listing of Reports Issued and Hotline Contacts                               6

   SECTION 7 - Listing of Particularly Significant Reports                                  7

   SECTION 8 - Statistical Tables Showing Total Number of Audit Reports, Inspection Reports,
                 and Evaluation Reports and the Dollar Value of Questioned Costs             7

   SECTION 9 - Statistical Tables Showing Total Number of Audit Reports, Inspection Reports,
                 and Evaluation Reports and the Dollar Value of Recommendations
                 That Funds be Put to Better Use by Management                               7

   SECTION 10 - Audit Reports, Inspection Reports, and Evaluation Reports Issued Before
                 the Commencement of the Reporting Period for Which No Management
                 Decision Has Been Made by the End of the Reporting Period                  7
                                   TABLE OF CONTENTS

                                                                                         PAGE


     SECTION 11 - Significant Revised Management Decisions Made During the Period            7

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                        7

TABLE I - Inspector General Issued Reports With Questioned Costs                             8

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                           9

Definitions of Terms Used                                                           Appendix A

Strategic Plan & Five Year Audit Plan                                               Appendix B
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) has offered assistance to a wide range
of non-profit organizations and individuals that carry out arts programming as well as to all the state
arts agencies. The NEA supports exemplary projects in the artistic disciplines. Grants are awarded
for specific projects rather than for general operating or seasonal support. Most NEA grants must be
matched dollar for dollar with non-federal funds. For FY 2010, the NEA received an appropriation of
$167.5 million from the Omnibus Appropriations Act of 2010. In addition, the NEA received $50
million in 2009 under the American Recovery and Reinvestment Act of 2009 (Recovery Act). These
additional funds do not require matching.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act Amendments of 1988, Public Law 100-504, amended the Inspector
General Act of 1978, Public Law 95-452, and required the establishment of independent Offices of
Inspector General (OIG) at several designated Federal entities and establishments, including the
National Endowment for the Arts. The mission of the OIG is to:

       - Conduct and supervise independent and objective audits, inspections and evaluations
         relating to NEA programs and operations;

       - Promote economy, effectiveness, and efficiency within the NEA;

       - Prevent and detect fraud, waste, and abuse in NEA programs and operations;

       - Review and make recommendations regarding existing and proposed legislation and
         regulations relating to NEA programs and operations; and

       - Keep the NEA Chairman and the Congress fully and currently informed of problems in
         Agency programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 to enhance the independence of the
Inspectors General, to create a Council of the Inspectors General on Integrity and Efficiency, and for
other purposes.

This semiannual report summarizes the OIG's major activities, initiatives, and results for the six-month
period ending September 30, 2010. Since July 2010, the OIG has consisted of two auditors and is in
the process of hiring a new auditor. The Agency is also actively recruiting to fill the Inspector General
position (at the SES level). There is no investigator or general counsel on the staff. In order to
provide a reactive investigative capability, we have a Memorandum of Understanding with the
Inspector General of the General Services Administration (GSA) whereby the GSA's OIG agrees to
provide investigative coverage for us on a reimbursable basis as needed. (No investigative coverage
from GSA was needed during the recent six-month period.) We also have a Memorandum of
Understanding with the National Credit Union Administration’s (NCUA) Office of Inspector General
that details procedures to be used for providing the OIG with legal services pursuant to the new
requirements reflected in the 2008 Act. An NCUA OIG staff member has been assigned to provide
such services on an as-needed basis.




                                                                                                          1
SUMMARY OF WORK COMPLETED BY THE OIG
During the six-month period ending September 30, 2010, the OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, the OIG issued four (4) reports. The reports were based on
audits/evaluations performed by OIG personnel. Overall, our reports contained 31 recommendations,
29 of which were related to systems deficiencies at grantee organizations and two recommendations
were related to systems deficiencies at the NEA .

Audit Resolution

At the beginning of the six-month period, there were two reports awaiting a management decision to
allow or disallow questioned costs of $78,100 and potential refunds of $32,400. A management
decision was made on one of the open reports to allow all of the questioned costs of $20,100, which
eliminated the potential refunds of $3,400. The second organization has submitted documentation to
the OIG. However, the OIG has requested additional documentation to support the questioned costs.
A management decision cannot be made until the review has been completed.

During the period, three of the newly issued reports identified questioned costs totaling $1,596,470
and potential refunds totaling $438,115. One of the organizations has submitted documentation to the
OIG to support the questioned costs. A management decision cannot be made until the review has
been completed. At the end of the period, four reports remained outstanding with questioned costs of
$1,654,470 and potential refunds of $467,115(See Table I).

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

Along with the OIGs for the National Endowment for Humanities (NEH) and the National Science
Foundation (NSF), we conducted an investigation of a New York public broadcasting company for
allegedly submitting false claims in violation of the civil False Claims Act. After several discussions
about the company’s accounting system and recordkeeping, the company produced a subset of the
relevant documents—in which we identified expenses for gifts for the talent, meals and costs
unrelated to the program that were charged to the NEA award.

Based on our review we determined that, the broadcasting company: (1) did not discretely account for
federal grant funds and (2) did not segregate unallowable expenses from the project account. We
referred the matter to the United States Attorney’s Office for the Southern District of New York, which
commenced negotiations with the company. The civil settlement included a five-year compliance
plan, the return of $950,000, and de-obligation of $1,015,046 from current awards from the three
agencies - of the total, $413,272 was associated with NEA awards.

The OIG opened one new allegation case during the recent six-month period which remained open at
the end of the period.


                                                                                                          2
Audit of the NEA Fiscal Year 2010 Financial Statements

The Chief Financial Officers Act of 1990 (Public Law 101-576, commonly referred to as the ―CFO Act),
as amended, requires the NEA Office of Inspector General or an independent external auditor, as
determined by the Inspector General, to audit the agency financial statements. Under a contract
monitored by the OIG, Leon Snead & Company (LSC), an independent certified public accounting and
management consulting firm, was awarded a five year contract in 2006 to audit the NEA’s financial
statements and is performing the 2010 audit. The audit will be conducted following Generally
Accepted Government Auditing Standards (GAGAS) and OMB Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as revised. In addition, the firm will provide reports on internal
controls and compliance with laws and regulations for matters relevant to the financial statement
audit.

The OIG coordinated and attended the audit entrance conference with LSC and management to
discuss the audit objectives and schedule. The audit is scheduled to be completed by November 8,
2010.

NEA’s Compliance with the Federal Information Security Management Act of 2002 (FISMA)

FISMA requires that each federal agency develop, document, and implement an agency-wide
program for providing security for the information and information systems that support the operations
and assets of the agency, including those provided or managed by another agency, contractor, or
other source.

The OIG completed a full FISMA evaluation in FY 2009. The evaluation was performed using the
most recent applicable FISMA requirements and guidelines published by the OMB and the National
Institute of Standards and Technology. The assessment found that although the NEA made some
progress in complying with FISMA, some additional improvements were needed. The OIG made
seven recommendations. During this reporting period, the NEA completed corrective actions for all of
the recommendations. The OIG is currently conducting the FY 2010 FISMA evaluation, which is due
to OMB November 15, 2010.

Indirect Cost Rate Negotiations

The OIG did not negotiate any indirect cost rate agreements with NEA grantee organizations during
this reporting period. The NEA Grants and Contracts Office has entered into an interagency
agreement with the National Business Center at the U.S. Department of Interior to negotiate indirect
cost rates.

Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses and
written commentaries on Agency and other government publications/reports and regulations.




                                                                                                       3
Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations," and advising some of the first-
time and smaller organizations on implementing practical accounting systems and internal controls
sufficient to assure compliance with their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site includes pages for Reports; Recovery Act
including a section for Training and Resources; Reporting Fraud, Waste and Abuse; Career
Opportunities; and Other Resources. Recently, the Reports page was updated to include External
Peer Reviews of the OIG.

Other Activities

During this period, the OIG took part in the activities of the Council on Inspectors General for Integrity
and Efficiency (Council), and allocated resources for responding to information requests from and for
the Congress and other agencies. We have also participated in various efforts by the Council and
other federal agencies to develop effective oversight strategies for Recovery Act activities. We
continued our proactive oversight of NEA’s management of its Recovery Act funds with an emphasis
on the accuracy of data Recovery Act fund recipients are required to report to the NEA and outreach
to both the staff and grant recipients.

The Government Accountability Office’s Government Accounting Standards (GAS) requires audit
organizations that perform audits or attestation engagements to have an appropriate system of quality
control and to undergo external peer reviews at least once every 3 years. Federal audit organizations
can receive a rating of Pass, Pass with deficiencies, or fail. A peer review of the OIG was conducted
by the Federal Trade Commission Office of Inspector General. The OIG received a rating of Pass.

Strategic Plan & Five-Year Audit Plan

We have issued our Strategic Plan & Five-Year Audit Plan for the Years 2011 – 2015. Our planning
methodology is built around the concept of issue areas and issues. The issue areas are broad
categories of prime importance: they highlight the priorities of our customers - Agency management,
the Congress and the American people. The individual issues, expressed as questions, represent an
assessment of the most significant concerns facing the NEA. The methodology also includes the
formulation of annual audit work plans.




                                                                                                             4
                                  SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    the other for state and local governments.
Abuses and Deficiencies                              The guides are not offered as complete
                                                     manuals of procedures; rather, they are
Audits, evaluations and other reviews                intended to provide practical information on
conducted by OIG personnel during the                what is expected from grantees in terms of
current and prior periods have disclosed a           fiscal accountability. The guides are available
few instances of deficient financial                 at www.arts.gov/about/OIG/Guidance.html.
management practices in some organizations
that received NEA grants. Among these                The guides discuss accountability standards
were:                                                in the areas of financial management, internal
                                                     controls, audit, and reporting. The guides
   Reported grant project costs did not agree        also contain sections on unallowable costs
   with the accounting records, e.g., financial      and shortcomings to avoid. In addition, the
   status reports were not always prepared           guides include short lists of useful references
   directly from the general ledger or               and some sample documentation forms.
   subsidiary ledgers or from worksheets
   reconciled to the accounts;                       SECTION 3 – Recommendations in
                                                     Previous Reports on Which Corrective
   Personnel costs charged to grant projects         Action Has Not Been Implemented
   were not supported by adequate
   documentation, e.g., personnel activity           There were no significant recommendations
   reports were not maintained to support            in previous reports on which corrective action
   allocations of personnel costs to NEA             has not been implemented.
   projects when required;
                                                     SECTION 4 – Matters Referred to
   The amount allocated to grant projects for        Prosecuting Authorities
   common (indirect) costs which benefited
   all projects and activities of the                A joint-agency investigation of a grantee
   organization was not supported by                 resulted in a referral to the United States
   adequate documentation; and                       Attorney’s Office for the Southern District of
                                                     New York. A civil settlement included a five-
                                                     year compliance plan and a recovery of
   Grantees needed to improve internal
                                                     $ 413,272 to the NEA (see Investigations).
   controls, such as ensuring proper
   separation of duties to safeguard
                                                     SECTION 5 – Denials of Access to
   resources and including procedures for
                                                     Records
   comparing actual costs with the budget.
                                                     No denials of access to records occurred
SECTION 2 – Recommendations for                      during this reporting period.
Corrective Action

To assist grantees in correcting or avoiding
the deficiencies identified in Section 1, the
OIG utilizes two ―Financial Management
Guides,‖ one for non-profit organizations and
                                                                                                       5
               SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                                       DATE OF
NUMBER                                                              TITLE                                                                                    REPORT



                                Financial Management System & Compliance Evaluation Reports

SCE-10-02    Mosaic Youth Theatre of Detroit, MI. ................................................................................................................ 04/30/10
SCE-10-03    Detroit Symphony Orchestra, MI....................................................................................................................... 07/19/10


                                                               Limited Scope Audit Reports

LS-10-02     Commonwealth Council for Arts and Culture, CNMI ......................................................................................... 08/17/10


                                               American Recovery and Reinvestment Act Reports

                                                                                                                                                                              08
ARRA-10-02   Second Evaluation of NEA ARRA Data Quality Process .................................................................................. 04/16/10


                                                               TOTAL REPORTS – 4




                                                                     OIG Hotline Contacts


                            Telephone Calls………………………………………………………………….                                                              2
                            Email ……………………………………………………………………………..                                                                  1
                            Standard Mail…………………………………………………………………….                                                               0
                            Referred by Other Sources……………………………………………………..                                                        0
                            Fax………………………………………………………………………………..                                                                    0

                                                              TOTAL CONTACTS – 3




                                                                                                                                                                        6
SECTION 7 – Listing of Particularly               audit reports, inspection reports, and
Significant Reports                               evaluation reports and the total dollar value
                                                  of questioned costs.
Audit Report Number LS-10-02
                                                  SECTION 9 – Statistical Tables Showing
The OIG performed a limited scope audit on        Total Number of Audit Reports,
the Commonwealth of Northern Mariana              Inspection Reports, and Evaluation
Islands, Commonwealth Council for the Arts        Reports and the Dollar Value of
and Culture. The audit concluded that the         Recommendations that Funds be Put to
Council does not have a financial                 Better Use by Management
management system in place to adequately
track, monitor and report accurate and            As shown on Table II, there were no audit
complete costs. The audit resulted in             reports, inspection reports and evaluation
questioned costs of $592,414, with a potential    reports with recommendations that funds be
refund of $337,666. The report contained 18       put to better use by management.
recommendations, 14 of which addressed the
Council’s management of NEA grants.               SECTION 10 – Audit Reports, Inspection
                                                  Reports, and Evaluation Reports Issued
The remaining four recommendations advised        Before the Commencement of the
the NEA regarding the disallowance of costs       Reporting Period for Which No
charged to the grants audited and the             Management Decision Has Been Made by
Council’s eligibility status to apply for and     the End of the Reporting Period
receive NEA awards. The OIG recommended
to the NEA that (1) the Council be deemed as
                                                  As shown on Table I, there was one audit
a ―high-risk‖ grant recipient in accordance
                                                  report issued before the commencement of
with the NEA’s General Administrative             the reporting period for which no
Regulations, 45 C.F.R. § 1174.12, (2) the         management decision has been made by the
Council be ineligible to apply for or receive
                                                  end of the reporting period.
NEA awards, (3) the NEA terminate all
funding, including any suspended
                                                  SECTION 11 – Significant Revised
awards, until such time as the Council has
                                                  Management Decisions Made During the
implemented corrective actions to address
                                                  Period
the findings of the report and provided NEA
with evidence of improvements in its
                                                  No significant revised management
management of Federal grants and (4) if, in
                                                  decisions were made during the reporting
the future, NEA reinstates the Council’s
                                                  period.
eligibility to receive funding, the Council
should be placed on the Cost Reimbursement
method of funding. A management decision          SECTION 12 – Significant Management
was made to implement all of the                  Decisions With Which the Inspector
recommendations.                                  General Disagrees

SECTION 8 – Statistical Tables Showing            There were no significant management
Total Number of Audit Reports, Inspection         decisions that the Inspector General
Reports, and Evaluation Reports and the           disagreed with during the reporting period.
Dollar Value of Questioned Costs

Table I of this report presents the statistical
information showing the total number of
                                                                                          7
                                                      TABLE I

                      INSPECTOR GENERAL ISSUED REPORTS
                            WITH QUESTIONED COSTS


                                                                     QUESTIONED UNSUPPORTED                     POTENTIAL
                                                      NUMBER             COSTS                COSTS             REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period                              2                 78,100            (78,100)              32,400


  B. Which were issued during the reporting
      period                                               3             1,596,470          (1,596,470)            438,115


      Subtotals (A + B)                                    5             1,674,570          (1,674,570)            470,515


  C. For which a management decision was
      made during the reporting period                     1                 20,100            (20,100)               3,400


       (i)       Dollar value of disallowed costs          0                       0                  (0)                  0


       (ii)      Dollar value of costs not
                 disallowed                                1                 20,100            (20,100)               3,400


  D. For which no management decision has
      been made by the end of the reporting
      period                                               4             1,654,470          (1,654,470)            467,115


      Reports for which no management
      decision was made within six months of
      issuance                                             1                 58,000            (58,000)              29,000




1/ The potential refund amount usually will not equal the questioned costs amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is
   reduced significantly as a result of the audit followup process, which includes examination of documentation submitted by the
   grantee.




                                                                                                                                  8
                                      TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                            DOLLAR
                                                   NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                           0        0

 B. Which were issued during the reporting
    period                                           0        0

    Subtotals (A + B)                                0        0

 C. For which a management decision was made
    during the reporting period                      0        0

    (i) dollar value of recommendations
        that were agreed to by management            0        0

        -   based on proposed management
            action                                   0        0

        -   based on proposed legislative action     0        0

    (ii) dollar value of recommendations
         that were not agreed to by management       0        0

 D. For which no management decision has been
    made by the end of the reporting period          0        0

    Reports for which no management decision
    was made within six months of issuance           0        0




                                                                     9
                                                                                  APPENDIX A

                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the Office of Inspector General (OIG)
                                      questioned because of alleged violation with a provision of
                                      a law, regulation, contract, or other agreement or
                                      document governing the expenditure of funds; such cost is
                                      not supported by adequate documentation; or the
                                      expenditure of funds for the intended purpose is
                                      unnecessary or unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to the NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      occurs when a management decision was made.




                                                                                               10
                      REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the occurrence
of any unlawful or improper activity related to NEA operations or programs, should contact the
OIG immediately. A complaint/referral may be reported using any of the following methods:

                Toll-free OIG Hotline: 1-877-535-7448
                Local Calls: 202-682-5479
                Fax: 202-682-5649
                Email: oig@arts.gov
                Website: www.arts.gov/about/oig/fraud.html


You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.



When contacting the OIG, it will help if you have answers to the following questions:
       Who are the parties involved (names, addresses and phone numbers if possible);

       What is the suspected activity (specific facts of the wrongdoing);

       When and where did the wrongdoing occur;

       How did you learn about the activity (from a third party, actual observation, conclusion drawn from
       observing or performing different activities, etc.); and

       Where can you be contacted or when will you contact us again.


The OIG will not disclose the identity of a complainant or informant without consent, unless the
Inspector General determines that such disclosure is unavoidable during the course of the
investigation. You may remain anonymous, if you choose. Federal employees are protected
against reprisal for disclosing information to the Inspector General unless such disclosure was
knowingly false.




                                                                                                             11
     CHAIRMAN’S SEMIANNUAL REPORT
            ON FINAL ACTION
RESULTING FROM AUDIT REPORTS, INSPECTION
   REPORTS, AND EVALUATION REPORTS

   April 1, 2010 through September 30, 2010




                 Submitted
               November 2010
                             TABLE OF CONTENTS




INTRODUCTION                                                                   1

REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
INSPECTION REPORTS AND EVALUATION REPORTS

  Section 1    Comments Relating to the Inspector General's Report             2

  Section 2    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending September 30, 2010                                3

  Section 3    Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending September 30, 2010   3

  Section 4    Audit Reports, Inspection Reports, and Evaluation Reports
               for Which a Management Decision Was Made Prior to
               October 1, 2010, but on Which Final Action Has Not Occurred     3

  Table A      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Disallowed Costs for the Six-Month
               Period Ending September 30, 2010                                4

  Table B      Management Report on Final Action on Audits, Inspections,
               and Evaluations with Recommendations to Put Funds to
               Better Use for the Six-Month Period Ending September 30, 2010   5
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of
1988 (Public Law 100-504), established independent, objective units within Federal agencies
for the following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and
       detect fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and
       deficiencies and associated corrective action.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008 (Public
Law 110-409). The 2008 Act amends the previous IG Act of 1978 to enhance the
independence of the Inspectors General, to create a Council of the Inspectors General on
Integrity and Efficiency, and for other purposes.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the
office’s activities for the preceding six-month periods ending March 31st and September 30th.
The report must (1) address significant problems, abuses, and deficiencies in the management
of agency programs and operations identified during the reporting period, and (2) identify
recommendations for corrective action. Section 106(b) directs the Inspector General to furnish
this report within 30 days to the agency head, who is required to prepare a separate report on
management decisions resulting from audit reports, inspection reports, evaluation reports, the
status of disallowed costs, and final actions taken during the corresponding period, including
any comments deemed appropriate. The agency head must transmit both reports to the
Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
April 1, 2010 through September 30, 2010.




                                              1
        REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS,
            INSPECTION REPORTS, AND EVALUATION REPORTS


Section 1.   Comments Relating to the Inspector General's Report

             A. Comments on OIG’s Summary Section

             Audits/Inspections/Evaluations/Reviews. As reported in the Inspector General’s
             Semiannual Report to the Congress, at the end of the reporting period there were
             four outstanding reports with questioned costs and potential refunds; management
             continues to work with the auditees to resolve the outstanding audit issues.

             When the Audit Followup Official disallows questioned costs, it is typically
             because the grantee or cooperator has responded inadequately to the Arts
             Endowment’s request for supporting documentation, such as canceled checks,
             invoices, contracts, personnel activity reports, or testimonial evidence. Agency
             funds may represent only a small portion of an awardee’s total project costs.
             Deficiencies normally are resolved through the Agency’s audit resolution process,
             and refunds are infrequent.

             Technical Assistance: Improved Oversight. The Arts Endowment places a high
             priority on ensuring that employees are well informed about policies, procedures,
             and requirements related to grants administration and audits. The Grants &
             Contracts Office routinely conducts training on various topics for Agency staff,
             including targeted one-on-one training as necessary. During the period, the
             Grants & Contracts Office and the OIG continued to provide technical assistance
             and compliance evaluations for grantees, particularly in relation to the American
             Reinvestment and Recovery Act of 2009 (Recovery Act).

             Web Site. The Arts Endowment continues to provide its “My Grant at a Glance”
             feature on the Agency Web site. In addition to tracking the status of payment
             requests online, grantees can obtain historical reports of their grants back to at
             least 1988. The reports include the amount of the grant, the period of support, and
             a brief project description. The Arts Endowment continues to require electronic
             application submission through Grants.gov across all Arts Endowment programs;
             applicants unable to apply electronically through Grants.gov must request
             permission from the Agency to submit applications through an alternative
             method.

             Other Activities. Arts Endowment staff continued to work closely with the OIG
             on issues of mutual interest, such as the independent audit of the Agency’s
             financial statements for fiscal year 2010, and Recovery Act activities. As
             mentioned in the Semiannual Report, since July 2010, the OIG has consisted of
             two auditors. The Agency is now actively recruiting to fill the Inspector General
             position (at the SES level), and is in the process of hiring a new auditor.

                                               2
             B. Comments on OIG’s Sections 1 and 2

             OIG audit, inspection, and evaluation reports on Arts Endowment awardees are
             based upon reviews conducted by the OIG itself or upon OIG analysis of audits
             completed by outside auditors. The outside audits may be performed by State
             audit agencies, by other Federal agencies (generally the agency providing the
             greatest amount of Federal funding to an organization also supported by the Arts
             Endowment), or by independent public accountants engaged by awardees.

Section 2.   Management Report on Final Action on Audit Reports, Inspection Reports,
             and Evaluation Reports with Disallowed Costs for the Six-Month Period
             Ending September 30, 2010 (Section 8 of the OIG Report)

             There were no audit, inspection, or evaluation reports with management decisions
             made that were awaiting final action at the beginning of the period. (See Table A).

Section 3.   Management Report on Final Action on Audits Reports, Inspection Reports,
             and Evaluation Reports with Recommendations to Put Funds to Better Use
             for the Six-Month Period Ending September 30, 2010 (Section 9 of the OIG
             report)

             There were no audit, inspection, or evaluation reports with recommendations to
             put funds to better use awaiting final action as of September 30, 2010 (See Table
             B).

Section 4.   Audit Reports, Inspection Reports, and Evaluation Reports for Which a
             Management Decision Was Made Prior to April 1, 2010, but on Which Final
             Action Has Not Occurred

             There were no audit, inspection, or evaluation reports for which a management
             decision was made prior to April 1, 2010, on which final action has not yet
             occurred.




                                               3
                                                          TABLE A

                         MANAGEMENT REPORT ON FINAL ACTION
           ON AUDITS, INSPECTIONS, AND EVALUATIONS WITH DISALLOWED COSTS
                 FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2010


                                                                       # OF            DISALLOWED                 POTENTIAL
                                 ITEM                                REPORTS              COSTS                   REFUNDS

A.    Audit/inspection/evaluation reports with
      management decisions on which final action
      had not been completed at the beginning of
      the reporting period. See Note 1.                                    0                            $0                      $0

B. Audit/inspection/evaluation reports on which
   management decisions were made during the
   reporting period. See Note 2.                                           0                              0                     0

     Subtotal (A+B)                                                        0                            $0                      $0

C. Audit/inspection/evaluation reports on which final
   action was taken during the reporting period,
   including:

     i.    The dollar value of disallowed costs that
           were recovered by management through:

            a. Collection & offsets                                        0                            $0                      $0
           b. Property                                                     0                              0                      0
           c. Other                                                        0                              0                     0

     ii.    The dollar value of disallowed costs that
            were written off by management.                                0                              0                      0

     Subtotal (i + ii) See Note 3                                          0                            $0                      $0

D. Audit/inspection/evaluation reports for which no final
   action has been taken by the end of the reporting
   period. (A+B-C) See Note 4.                                             0                            $0                      $0

Notes:
  1. Reports in which management has made a decision to disallow costs; however, final actions (e.g., collection, write-offs)
       were not completed by the beginning of the reporting period.
  2. Reports in which management has made a decision, during the reporting period, to disallow costs.
  3. Reports in which final actions were completed during the reporting period.
  4. Reports in which management has made a decision to disallow costs; however, final action was not completed by the end
       of the reporting period.




                                                                4
                                              TABLE B

    MANAGEMENT REPORT ON FINAL ACTION ON AUDITS, INSPECTIONS,
AND EVALUATIONS WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
        FOR THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 2010

                                                                            FUNDS TO BE
                                                                    # OF      PUT TO
                                 ITEM                             REPORTS   BETTER USE


   A.   Audit/inspection/evaluation reports with management
        decisions on which final action had not been taken at
        the beginning of the reporting period.                       0          $0


   B.   Audit/inspection/evaluation reports on which
        management decisions were made during the period.            0           0

        Subtotal (A+B)                                               0           0


   C. Audit/inspection/evaluation reports on which final action
      was taken during the period:


        i. Dollar value of recommendations
           implemented:

           a. Based on management action                             0           0
           b. Based on proposed legislative action                   0           0


        ii. Dollar value of recommendations not
            implemented                                              0           0


        Subtotal (i+ii)                                              0           0

   D. Audit/inspection/evaluation reports needing final action
      at end of the period. (A+B-C)                                  0          $0




                                                  5
